HHS/OIG - Audit:"Review of Medicare Part B Administrative Costs Fiscal Years 1995 - 1997, Highmark, Inc., Camp Hill, Pennsylvania"(A-03-00-00003)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part B Administrative Costs Fiscal Years 1995 - 1997, Highmark, Inc., Camp Hill, Pennsylvania" (A-03-00-00003)
April 11, 2002
Complete
Text of Report is available in PDF format (1.02 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report covers the audit of $299,169,893 in Medicare Part B administrative costs claimed by Highmark, Inc, d/b/a
HGSAdministrators for the period October 1, 1994 through September 30, 1997.  We identified and recommended for adjustment
$1,224,793 in costs that were either unallowable, unreasonable, or unapproved.  We also questioned $640,123 in unsupported
costs for which documentation supporting the expense was either not provided or proved inadequate to determine the nature,
type, reasonableness or necessity of the expense.  The auditors did not render an opinion on reported Medigap credits
totaling $478,418 because of the significant amount of unsupported billings.